           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                              Date:   February 23, 2011
           Single Audit on the Regional Transportation Commission
           of Southern Nevada
           Report No. QC-2011-054
                                                                            Reply To   JA-20
  From:    Earl C. Hedges                                                   Attn Of:
           Program Director for Single Audit
    To:    Regional Administrator, FTA, Region IX
           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Regional Transportation Commission of Southern Nevada
           (Commission). This report presents the results of our Quality Control Review
           (QCR) of a single audit performed on the Commission by Piercy Bowler Taylor &
           Kern for the fiscal year ending June 30, 2009. During this period, the Commission
           expended about $131 million from the following DOT grant programs:

           DOT Operating                 CFDA*    Program            FY 2009     Major  Direct
           Administration                Number    Name            Expenditures Program Award
             Federal Transit                 Capital Investment
                                  20.500                            $50,067,017        Yes      Yes
             Administration                    Grants Program
             Federal Transit                   Formula Grants
                                  20.507                            $76,978,905        Yes      Yes
             Administration                        Program
             Federal Transit                Discretionary Bus &
                                  20.500                              $294,000         Yes       No
             Administration                  Facilities Program
             Federal Transit                 Transit Capital and
                                  20.507                              $250,000         Yes       No
             Administration                 Operating Assistance
             Federal Transit                     Section 5303
                                  20.505                              $906,704         No       Yes
             Administration                    Planning Funds
            Federal Highway
                                  20.205      Various Programs       $2,846,320        No       Yes
             Administration
           * Catalogue of Federal Domestic Assistance

           Office of Management and Budget (OMB) Circular A-133, "Audits of States,
           Local Governments, and Non-Profit Organizations," requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.
                                                                                                   2
Piercy Bowler Taylor & Kern rendered an unqualified (clean) opinion on the
Commission’s financial statements and compliance with major Federal programs,
and did not question any costs concerning DOT grant programs. 1
The purpose of our review was to determine: (1) whether the audit work complied
with generally accepted government auditing standards as prescribed by the
Comptroller General of the United States, the Single Audit Act of 1984, as
amended (Act), and OMB Circular A-133; and (2) the extent to which we could
rely on the audit work.
RESULTS
Based on our QCR, we determined that Piercy Bowler Taylor & Kern's work was
acceptable with deficiencies, and therefore generally met the requirements of
generally accepted government auditing standards, the Act, and OMB
Circular A-133. We found nothing to indicate that Piercy Bowler Taylor & Kern's
opinion on the financial statements or reports on internal control and compliance
were inappropriate or unreliable.
However, we identified deficiencies in audit documentation that need to be
corrected in future audits. Based on explanations that Piercy Bowler Taylor &
Kern provided, we determined that these deficiencies did not alter the overall audit
results. However, to adequately support audit conclusions, these deficiencies
should be corrected in future audits. The deficiencies are related to the following
areas:
1. Procurement and Suspension and Debarment (Specific Program
   Tests-Part IV of the Compliance Supplement).
   Piercy Bowler Taylor & Kern's audit documentation did not support its
   compliance testing of Disadvantaged Business Enterprises (DBE)
   certifications, and Procurement of Vehicles and Facilities (compliance with
   Americans with Disabilities Act (ADA) of 1990). During our review, Piercy
   Bowler Taylor & Kern informed us that they reviewed procurement and
   contract files and the Commission's policies and procedures in order to
   determine compliance with DBE and ADA requirements. However, Piercy
   Bowler Taylor & Kern agreed to better document their work performed
   applicable to DBE and ADA requirements in future audits.
2. Reporting (Compliance Requirement L).
   Piercy Bowler Taylor & Kern's audit documentation did not specify the
   accounting documents reviewed to determine the completeness and accuracy
   of the Financial Status and DBE reports. Piercy Bowler Taylor & Kern agreed
   to fully document its Financial Status Reports testing in future audits.



1
    The single audit report issued by Piercy Bowler Taylor & Kern is available upon request. Requests
    should be sent to singleauditrequest@oig.dot.gov.
                                                                                  3
3. Risk Assessment of Material Non-Compliance.
   For those compliance requirements that are direct and material to the major
   program, the audit documentation included insufficient evidence that Percy
   Bowler Taylor & Kern had assessed the risk of material non-compliance and
   documented its basis for that assessment. Piercy Bowler Taylor & Kern agreed
   to fully document its assessment of the risk of material non-compliance and
   their basis for that assessment in future audits.
4. Sampling Methodology.
   Piercy Bowler Taylor & Kern did not document its formal sampling plan and
   the methodology used to test internal controls and compliance related to the
   major programs direct and material compliance requirements. According to
   information Piercy Bowler Taylor & Kern provided to us, the sampling
   methodology included adequate sample selections for testing major program
   compliance requirements. However, Piercy Bowler Taylor & Kern agreed to
   fully document its identification and internal controls testing in future audits.
We also identified the following deficiencies as part of our desk review of the
Commission's Fiscal Year 2009 Single Audit report:

       • The Type A/Type B threshold was reported incorrectly on the Schedule
         of Findings and Questioned Costs and the Data Collection Form (DCF).
       • The Federal Transit Administration Section 5307 and 5309 programs
         that Nevada Department of Transportation passed through to the
         Commission were incorrectly reported as direct awards on the Data
         Collection Form.
       • The Federal Transit Administration was incorrectly titled as the Federal
         Transit Authority on the Schedule of Expenditures of Federal Awards
         (SEFA).

Piercy Bowler Taylor & Kern agreed to prepare an Addendum to the
Commission's fiscal year ending June 30, 2009 Single Audit report to correct the
errors on the Schedule of Findings and Questioned Costs and the SEFA. Piercy
Bowler Taylor & Kern also agreed to submit a revised DCF to the Federal Audit
Clearinghouse.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.
                                         #

cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, OST, M-1
    Director of Finance, Regional Transportation Commission of Southern Nevada
